^ §> 8 S 2*
No.

IN THE
SUPREME COURT OF THE UNITED STATES

OCT 0 f 2021
"In re" Lori Anna Massey

— PETITIONER

(Your Name)

vs.
— RESPON DENT (S)
Pierce County Sheriff's Dept.;
Klemme Pierce County Sheriff's Deputy
Kimberly Dawn

ON PETITION FOR A WRIT OF CERTIORARI TO

to

loFmraURT THAT'las! Wed ON MERITS OF YOUR CASE)

(NAIW)

PETITION FOR WRIT OF CERTIORARI

Lori Anna Massey
(Your Name)

1725 E. G Street, J64
(Address)

Ontario,CA91764
(City, State, Zip Code)

(253) 222-0664
(Phene Number)

QUESTIONS) PRESENTED

1. Should no time limit apply?
R.C.W. 4.16.190 If a person entitled to bring an action
against a sheriff or other officer be at the time the

cause of action accrued be incompetent or disabled,
mentally or physically, to such a degree that he or she
cannot bring forth or understand the nature of the
preceedings, such incompetency or disability shall not
be a part of the time limited for the commencement of
action.
Guidlines for Tolled Extension of Time: if the plaintiff is
incapacitated by a physical, mental or medical crisis or

incompetent at the time of expiration of the 'Statute of
Limitation', the statute may be lifted or tolled until the
plaintiff regains capacitation or restored competency
or physically restored to be whole again.

LIST OF PARTIES
Dd All parties appear in the caption of the case on the cover page,
f J All parties do not appear in the caption of the case on the oovei* page. A list of

all parties to the proceeding in the court whose judgment is the subject of this

petition is as follows:

Defenders Fierce County Sheriffs Department is and at all times
relevant a department providing local law enforcement for Pierce

County and are inclusive, responsible and culperable for the damages
I received by assault by Deputy Kimberly Dawn Klemme on April 17,
2010 at Allenmore Hospita in Washington State.
RELATED CASES

Defendent Pierce County Sheriff Deputy Kimberly Dawn Klemme is
and at all times relevant a duly authorized deputy/officer and/or an
employee of the Pierce County Sheriffs Department on Aprfll 7,2010
in Washington State.

Allenmore Hospital/MultiCare Health System

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION............................................................
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE.....................................................

2
'3
4

REASONS FOR GRANTING THE WRIT..............................

5

CONCLUSION

'6
INDEX TO APPENDICES

appendix ©pinions
APPENDIX

jurisdiction 28 U.S.C. 1332

APPENDIX

Constitutional & Statuatory Provisions

Involved
statement of the Case
APPENDIX
APPENDIX
APPENDIX

Season for Granting the Writ
Conclusion

TABLE OF AUTHORITIES cited

CASES
1

Victim of Crime Reports - April 17, 2010
Case/Cause No. B00236039
Incident No. 101070364

2. Injuries List/Diagnosis ^oc*es
3. NEXUS Report (Motive)

4. Class Action Lawsuit (Motive) Nov. 14,2007
Cause No. 04-2-07032*1
Re: Abba Plemmons & Members
Vs.
Pierce County Sheriffs

STATUTES AND RULES

5. Color of Law/Poiice Brutality
Malicious & Deadly Instrumentality
Title 18 U.S.C. 241 & 242
Conspiracy against Rights
Deprivation of Rights

6. Tort Claims
7, Expert Witnesses
8. Evidence

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respec(My prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[v/For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix

SSSafi/s Court of (Wt kh

(L tn

orr Q,|f Ujfc'

[ ] has been designated for publication but is not yet reported; or,
M is unpublished.
The opinion of the United States district court appears at Appendix 5_to
the petition and is
Western District of Washington at Tacoma
;or,
[\/reported at —----[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
to the petition and is
Appendix
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
court
The opinion of the __
to the petition and is
appears at Appendix
: or,
[ ] reported at----[ 3 has been designated for publication but is not yet reported; or,
[ 3 is unpublished.
1.

(Appendix A)

JURISDICTION
1X3 For cases from federal courts:
The date on which the United States Court of Appeals decided my case
WES

5/13/2020

,

[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:-------- ----------------- -and a copy of the
order denying rehearing appears at Appendix------ -[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including------------------------ (date) on----------------------— (date)
in Application No. —A------- ..

The jurisdiction of this Court is invoked under 28 U. S. C. § 1264(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix------- [ J A timely petition for rehearing was thereafter denied on the following date:
____________________ and a copy of the order denying rehearing
appears at Appendix-------- -

[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including___
Application No. —A

The jurisdiction of this Court is invoked under 28 U. S. C. § 1267(a).

2.
/A

M M AM

/J.’w D^

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1. United States Constitution
“We the People”

2. Civil Rights Act of 1964

3. The United Nations Universal Declaration of Human Rights which are
regularly protected as natural legal rights in the municipal and
international law, whereas recognition of the inherent dignity and of
the equal and inalienable rights of all the members of the human

family is the foundation of freedom, justice and peace in the world....
Ail human beings are both free and equal in dignity and rights.

3.
(Appendix C)
STATEMENT OF THE CASE

STATEMENT OF THE CASE

,

1. No Statute of Limitations. Tolled and suspended for serious crimes such
as murder, attempted murder, kidnapping etc... The operation of Statute of
Limitation can be avoided and eliminated altogether/tolled if serious crimes
and/or permanent mental and physical injuries occurred, factors that delay
the ability of the plaintiff to take action.
2. On April 17,2010,1 went to Allenmore Hospital's emergency room
expecting to receive courteous and considerate medical care. Instead, the
defendents Richard B. Gomez (Security guard) and an accomplice, male
nurse, (name unknown) both employees of Allenmore Hospital, a MultiCare
Health System facility, intentionally interfered with my Civil Rights by threats,
intimidation and coercion in that the two men acted violently against me to
deter me from exercising my free will and rights to medical care without
expecting to be harmed or injured in Tacoma, WA, Pierce County.

3.0n April 17,2010, after realizing that Richard Gomez and accomplce poset
a violent attack and eminent threat on/to my life, I tried to quicklymne ER anc
the two men 'FOLLOWED ME OUT THE DOORS' and attacked me from behinc
They assaulted and battered, beat and lynched me for approimately 10
minutes.

4.Then the Pierce County Sheriff and the Tacoma Police arrived and "Upon
arrival was a further Tip of Injustice”, as per Dr. Vu also. Still on the ground, tf
two men then began twisting and holding my arms and feet, holding me dovt
as Pierce County Sheriff Deputy Kimberly Dawn Klemme used the
unnecessary, unreasonable deadly malicious instrmentality of steel-toed
boots with excessive force to kick me from head to toe. You cannot kick a

person unless they are already otJ the ground!
4a.
(Appendix D)

5. 'As a Direct Result/Proximate Cause of Assault’ on April 17,2010,
plaintiff has been and continues to be incapacitated having:
a) Mental Instability.
b) Permanently Broken Skull w/ Orbital and Nasal Cavity Fractures
also called Ecchymosis/Battle Sign.
c) Permanently Broken Cervical and Lumbar Spines &
SacralFractures and critical massively flowing/floating ossification
and/or bone particles and fragments.
d) Completely detached/amputated Shoulders/Humeral Head
(bilateral).
e) Legal blindness, Cataract removal w/ implants due to head
trauma.
f) Permanent Brain damage and Spinal Cord injuries.
g) Herniations of Cerebrospinal Fluid through the Skull and
Diaphragm.
h) Permanent Extruding Fragment through the Oropharynx.
i) Meniscus tears of the Knees.
j) Ankle Fractures etc...
6. A person has the ability to sue because the acts committed were in
vioiation of the United States Constitution, and because it is a federai crime
to injure, intimidate or interfere with those seeking to obtain hospital, health,
or medical services. Plaintiff, by standing to privately prosecute a right
without having been personally injured or expecting harm or subject to
retaliation on April 17, 2010 at Allenmore Hospital in Tacoma, WA, Pierce
County.

4(b)
(Appendix D)

STATEMENT OF THE CASE

7. By perpetrating, sanctioning, tolerating and ratifying ths 0Utrag60US
conduct and other wrongful acts, the defendants acted with an intentional,
reckless and callous disregard for the health, safety,and welfare of the
plaintiff and the plaintiff’s Constitutional, Civil, and Human Rights.
8. Defendants deprived plaintiff of rights and liberties secured by the Fourth
and Fourteenth Amendments of the United States Constitution, in that the
defendants and their supervising, managerial, training and controlling of
employees, agents, and representatives acted with gross and deliberate
negligence. At all times, agents knew or reasonably should have known
that Deputy Klemme had dangerous propensities for abusing her authority
and for mistreating innocent civilians.
9. ‘As a Direct Result & Proximate Cause’ of intentional affliction, plaintiff
continues to suffer extreme physical pain, and also to this day, incurred
damages of psychological & emotional injuries, and Post Traumatic Stress
Disorder. The conduct of Deputy Klemme was willful, wanton, malicious,
and done with reckless disregard for plaintiffs rights and safety on April 17,
2010, therefore It warrants the imposition of exemplary and punitive
damages.
10. Deputy Klemme’s conduct caused plaintiff Lori A. Massey to be
arrested and detained without just cause in violation of plaintiffs rights to
secure hospital entry/exit without retaliation or injury. Therefore, Pierce
County Sheriffs Department, also Deputy Klemme are both liable for the
plaintiff’s permanent injuries because Klemme was an integral participant in
the wrongful arrest and detention of the plaintiff April 17, 2010.
4(c)
(Appendix D)
STATEMENT OF THE CASE

11 ‘Respondeat Superior' states that hospitals/sheriffs departments are
liable for employees' actions if the negligence happened while at work.
Redress for just grievances. Independent contractors that are no
employees, but the corporation/company can still be held culpa e and
accountable for ‘Granting Privileges' to those that are independent.

4(d)
(Appendix D)
REQUEST FOR RELIEF

WHERFORE: the plaintiff requests

*• rss-

but adds 'Protections Against Police

follows:
nt and future damages according to proof.
a. Past, prese
- actions were malicious, violent, oppressiv ,
b. Exemplary damages
,nj fraudulent
and grossly reckless,
and
fraudulent, wanton
w
^^
t(j pre_mjury
c. Compensatory damages
again.
state . To be made whole
meant to deter defendants from
d Punitive damages-

of $15,000,000.00, (Fifteen Million Dollars).

Lori ^nna Massey

C

Ul

0V
September 14,2021

wtm\

REASONS FOR GRANTING THE PETITION

1. In forma pauperis : 28 U.S.C. 1746

.

fth

The ability of an indigent person to proceed in court without payme
usual fees associated with the lawsuit or appeal
2.28 U.S.C. 201(e)
.
.
,. +
The case is of such imperative importance that it requires immediate

determination in the Supreme Court of the United States.
3. 28 U.S.C. 1651(a)
,
An Extraordinary Writ is needed because the exceptional circumstances
warrant the exercises of the court's discretionary powers, and adequate
relief cannot be obtained in any other form or from any other court. Also, the
existense of conflict and disagreements need to be removed.

5.
(Appendix E)

CONCLUSION

The petition for

i should
a writ of certioran

Pant6“

Emitted)
Respect^ su

f4j3\(Xk i
pate;-,

